<html>
<title> - [H.A.S.C. No. 111-145] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-145]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2011
                                  AND
              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS
                               BEFORE THE
                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE HEARING

                                   ON

   BUDGET REQUEST FOR DEPARTMENT OF DEFENSE'S SCIENCE AND TECHNOLOGY 
                                PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 23, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
57-701                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                LORETTA SANCHEZ, California, Chairwoman
ADAM SMITH, Washington               JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           JOHN KLINE, Minnesota
JAMES R. LANGEVIN, Rhode Island      BILL SHUSTER, Pennsylvania
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
JIM MARSHALL, Georgia                THOMAS J. ROONEY, Florida
BRAD ELLSWORTH, Indiana              MAC THORNBERRY, Texas
PATRICK J. MURPHY, Pennsylvania
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
                 Tim McClees, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, March 23, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Request for Department of Defense's 
  Science and Technology Programs................................     1

Appendix:

Tuesday, March 23, 2010..........................................    25
                              ----------                              

                        TUESDAY, MARCH 23, 2010
FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
        DEPARTMENT OF DEFENSE'S SCIENCE AND TECHNOLOGY PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Miller, Hon. Jeff, a Representative from Florida, Ranking Member, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     3
Sanchez, Hon. Loretta, a Representative from California, 
  Chairwoman, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................     1

                               WITNESSES

Carr, Rear Adm. Nevin P., Jr., Chief of Naval Research, Director, 
  Test and Evaluation and Technology Requirements, U.S. Navy.....     7
Dugan, Dr. Regina E., Director, Defense Advanced Research 
  Projects Agency, Department of Defense.........................    10
Killion, Dr. Thomas H., Deputy Assistant Secretary of the Army 
  for Research and Technology, U.S. Army.........................     5
Lemnios, Hon. Zachary J., Director, Defense Research and 
  Engineering, Department of Defense.............................     3
Walker, Dr. Stephen H., Deputy Assistant Secretary of the Air 
  Force for Science, Technology and Engineering, Office of the 
  Assistant Secretary for Acquisition, U.S. Air Force............     8

                                APPENDIX

Prepared Statements:

    Carr, Rear Adm. Nevin P., Jr.................................    62
    Dugan, Dr. Regina E..........................................    96
    Killion, Dr. Thomas H........................................    53
    Lemnios, Hon. Zachary J......................................    34
    Miller, Hon. Jeff............................................    32
    Sanchez, Hon. Loretta........................................    29
    Walker, Dr. Stephen H........................................    79

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
        DEPARTMENT OF DEFENSE'S SCIENCE AND TECHNOLOGY PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                           Washington, DC, Tuesday, March 23, 2010.
    The subcommittee met, pursuant to call, at 2:44 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Mike McIntyre 
presiding.
    Mr. McIntyre. [Presiding.] Good afternoon. I am Mike 
McIntyre from North Carolina, vice chairman of the Subcommittee 
on Terrorism. In the interests of honoring your time, I have 
been asked to go ahead and convene the meeting. I think the 
Chairwoman, Ms. Sanchez, will be here shortly. But we welcome 
the witnesses today. Because of the voting schedule, in the 
interests of time, we would like to go ahead and proceed with 
your testimony. She may have an opening statement, which we 
will certainly honor when she comes, but in the meantime, we 
welcome our distinguished panel.
    And here comes Madam Chairman as we convene.

  OPENING STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE 
FROM CALIFORNIA, CHAIRWOMAN, TERRORISM, UNCONVENTIONAL THREATS 
                 AND CAPABILITIES SUBCOMMITTEE

    Ms. Sanchez. [Presiding.] First of all, let me thank Mr. 
McIntyre for so ably opening this session, and also to my 
colleague to the left of me right now, but typically to the 
right, for representing the Republicans in this hearing today.
    I would like to welcome you all and thank you for joining 
us today to receive testimony on the Department of Defense's 
[DOD] science and technology [S&T] policies and for the fiscal 
year 2011 budget request for the S&T programs within the Office 
of the Secretary of Defense.
    The Department's S&T program supports Defense requirements 
for superior future warfighting capabilities by developing 
needed technology enhancements as well as rapidly transitioning 
critical technologies to our warfighter, interagency, and 
international partners, and the industrial base. I hope you 
gentlemen and ladies can tell us in real English everything 
that you have got planned.
    Over the last couple of years, Secretary Gates has 
challenged the old business and operational paradigm of the 
Department of Defense that was developed during the Cold War. 
And in a strategic environment in which the United States will 
continue to prosecute persistent hybrid threats while 
simultaneously dealing with larger near-peer competitors, as 
well as the myriad of unconventional and irregular threats, 
this S&T Department enterprise must be responsive and robust 
enough to hedge against uncertainty. The S&T investment should 
be flexible and balanced to address emerging challenges such as 
cyber warfare, force protection and energy, as well as 
breakthroughs in long-established areas like medical 
technology, platform survivability and sustainability, ISR 
[Intelligence, Surveillance, and Reconnaissance], and 
environmental remediation.
    Not only must these investments maintain our technological 
superiority, but it must also fund innovative ways to rapidly 
field these technologies at affordable prices.
    So the DOD laboratory system and the scientific workforce 
has traditionally kept the United States at the forefront of 
technological advances. But as we have seen in the last few 
years, some would say that we have fallen behind. DOD senior 
officials have testified that the Department's science and 
engineering workforce has experienced an attrition of more than 
13,000 personnel over the last 10 years, while the demands for 
that same workforce are projected to increase by over 10 
percent in the next 5 years.
    And I know that we are doing a lot with STEM [science, 
technology, engineering and math] and other issues to try to 
get the next generation up, but we are really at that place 
where we need to think about who do we have, what can we have, 
and where do we go from here. And let's fund it correctly. So a 
solid S&T base is not only a prerequisite for remaining a 
strong military, but I think it is an absolute necessity for 
our Nation's security.
    So today we have five witnesses before us who represent key 
leaders in the Department of Defense, who are responsible for 
discovering, developing, engineering, and fielding innovative 
technologies that give our warfighters that capability edge.
    First, we have the Honorable Zachary Lemnios, who is the 
Director of Defense Research and Engineering [DDR&E] for the 
Department of Defense; along with Dr. Thomas Killion, Deputy 
Assistant Secretary of the Army for Research and Technology.
    We have Rear Admiral Nevin Carr, Jr., Chief of Naval 
Research and Director of Test and Evaluation and Technology 
Requirements; Dr. Steven Walker, Deputy Assistant Secretary of 
the Air Force for Science, Technology and Engineering; and Dr. 
Regina Dugan, Director of the Defense Advanced Research 
Projects Agency, or DARPA.
    Once again, I would like to thank all of our witnesses for 
being here today, and I look forward to hearing your 
testimonies. And of course our very able members, my 
colleagues, will have many questions for you.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 29.]
    Ms. Sanchez. And I would like to now yield to my Ranking 
Member from Florida, Mr. Miller, for his opening statement. 
Thank you.

 STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM FLORIDA, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Miller. I thank you for yielding and thank you, 
gentlemen, and Dr. Dugan, for being here today. I do want to 
say that this subcommittee did hold a hearing in May of last 
year on science and technology investments. And I was 
concerned, expressed concern at that time because of the 
Secretary's decision to reshape the investment priorities of 
the Department, because we had the 2010 budget, but we didn't 
have a QDR [Quadrennial Defense Review]. Now we have them both, 
but I still remain concerned as to where we are going, as the 
Chairwoman has also said, in regards to the expenditure.
    And Secretary Gates is maintaining, as I understand, a 
focus on 6.1 and 6.2 investments. These basic and applied 
research areas are, as I feel, the building blocks of leap-
ahead technologies and capabilities that our military is going 
to be using more and more as we proceed down this road over the 
next decade. So they certainly do need to be a part of our 
military strategy.
    I have a full statement that I would like entered into the 
record. But in view of time, I would like to just ask unanimous 
consent that it be entered into the record.
    Ms. Sanchez. So ordered. Again, thank you to my ranking 
member.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 32.]
    Ms. Sanchez. And I think we will start with the testimony. 
I will remind our witnesses that we would like to have you 
summarize your written testimony. All of it is in front of us. 
And I am sure that some of us got to read this, at least part 
of it, if it was turned in on time.
    And I will start with Secretary Zach Lemnios for your five 
minutes or less.

    STATEMENT OF HON. ZACHARY J. LEMNIOS, DIRECTOR, DEFENSE 
        RESEARCH AND ENGINEERING, DEPARTMENT OF DEFENSE

    Secretary Lemnios. Good afternoon, Chairwoman Sanchez, 
Ranking Member Miller, and subcommittee members. I would ask 
that my written testimony be entered into the record. Thank you 
for the opportunity to tell you about the important work the 
dedicated men and women in the Department Research and 
Engineering enterprise perform every day to ensure our Nation's 
security. The enterprise is strong. It includes 67 DOD 
laboratories disbursed across 22 States, with a total workforce 
of 61,400 employees, 35,000 of which are degreed scientists and 
engineers who publish thousands of reports in peer-reviewed 
technical papers, keeping the Department at the forefront.
    We operate 10 federally funded research and development 
centers, 13 university-affiliated research centers, and 10 
information analysis centers across critical disciplines for 
the Department. Their success would not have been possible 
without Congress' help. And you have our heartfelt thanks for 
your steadfast support of our program.
    From my vantage point as the Department's chief technology 
officer, I see us in a period of significant change brought 
about by a global world that is fast paced, technically 
connected, and remarkably innovative. The research and 
engineering enterprise is transforming itself to meet the 
challenges of this new era.
    Innovation, speed, and agility--these are more important 
today than at any time in history. And nowhere is this more 
true than in how we deliver capabilities to our warfighters. 
For decades, the Department could rely on a long-term 
development model that produced the underpinning technologies 
that led to impressive capabilities such as stealth aircraft, 
precision weapons, and reconnaissance and positioning 
satellites.
    However, today this linear development approach must be 
augmented by a parallel and equally robust development process 
that will deliver capabilities along commercial timelines of 
weeks and months. This is particularly true for cybersecurity, 
where innovation occurs rapidly and we need to stay well ahead 
of the threat.
    The fast-paced world creates new challenges, but also new 
opportunities. It has led to a renewed role of the Department's 
science and technology programs. We are energized to quickly 
provide innovative new technical ideas across the spectrum of 
operations to fulfill the Secretary of Defense's goal to take 
care of our people, rebalance the Department's programs to 
fight the wars that we are in, while preparing for the future 
and reform how and what we buy. Detailed examples of this work 
are in my written testimony and in the testimony of my 
colleagues that you will hear today.
    The Department's research and engineering efforts are well 
coordinated, they are connected with our forces on the front 
lines. I visited the combatant commanders and am pleased to 
report that we are working together, soldiers and 
technologists, in new ways to out-innovate those that challenge 
our Nation's security.
    To focus our efforts, I have set four imperatives for the 
enterprise:
    They are, first, to accelerate the delivery of technical 
capabilities to win the current fight. Innovation such as what 
we are doing with Congress' support to deploy within months new 
survivability capabilities for our helicopters in Afghanistan 
is the new norm. We have also reduced the time it takes to move 
an innovative idea from first principle to concept from up to 
60 months to 12 months or less in our Joint Concept Technology 
Demonstration program.
    Second, prepare for the uncertain future. Again, with your 
help we are increasing our basic research accounts by nearly 
ten percent to increase the feedstock of future capabilities. 
We have also proposed a new Cybersecurity Research Initiative 
of $200 million over 5 years to ensure our forces have the 
capabilities to survive and operate successfully in the 
increasingly important information domain.
    Third, reduce the cost, acquisition time, and risk of our 
major Defense acquisition programs. This was the underpinning 
of the Weapons System Acquisition Reform Act that was passed 
about a year ago and we are actively engaged upon.
    And fourth, we strive to develop a world-class science, 
technology, engineering and math capability for the Department 
and for the Nation, to assure that we have scientists and 
engineers that can support national security initiatives 5, 10, 
15, and 20 years from now. With these initiatives and with your 
support, I intend to further strengthen the contributions 
research and engineering can make for the Department's success 
in the years ahead.
    Madam Chairwoman, thank you for my opportunity to present 
these ideas today in these brief remarks, and I look forward to 
your questions.
    Ms. Sanchez. I thank the Director.
    [The prepared statement of Secretary Lemnios can be found 
in the Appendix on page 34.]
    Ms. Sanchez. I will just let my colleagues know that in 
about an hour's time it looks like we will have votes, and they 
will go on for a full hour. So we are going to try to get 
everything in. Again, if the witnesses will adhere to the five-
minute rule.
    And I will also let Mr. Murphy of New York know that I will 
give him my time, so he will be the first one to ask questions 
if he sticks around. Dr. Killion, please.

STATEMENT OF DR. THOMAS H. KILLION, DEPUTY ASSISTANT SECRETARY 
       OF THE ARMY FOR RESEARCH AND TECHNOLOGY, U.S. ARMY

    Dr. Killion. Thank you, Madam Chairwoman. Mr. Miller and 
other distinguished members of the subcommittee, I appreciate 
the opportunity to be here today to discuss the Army's fiscal 
year 2011 science and technology program and budget and the 
significant role that S&T plays in supporting the Army's most 
precious asset: That is our soldiers.
    I have submitted a written statement for the record and ask 
that it be accepted for the record.
    I want to thank the members of this committee for your 
important role in supporting our soldiers who are at war today, 
and for your advocacy of the Army's S&T investments that will 
sustain technological preeminence for our future soldiers. Your 
continued support is vital to our success.
    The Army's S&T investment strategy is shaped to foster 
innovation while we accelerate and mature technologies that 
enable future force capabilities and exploit opportunities to 
rapidly transition technology to the current force. The S&T 
program retains flexibility to be responsive to unforeseen 
needs identified through current operations, and we have 
rapidly responded to a broad range of needs by leveraging our 
technology investments in future capabilities and our workforce 
expertise to address emerging issues.
    Our major investments in the core S&T program are best 
understood in terms of technology areas. In my written 
testimony I detail five of those areas.
    I would like to take this opportunity to talk specifically 
about two major new investments we are making in fiscal year 
2011, as well as some of the important work that we are doing 
in medical research and in ongoing basic research. As you know, 
the United States military's deployment in Afghanistan is 
increasingly reliant on smaller, remote bases, often integrated 
within or nearby local communities. Providing force protection 
for these types of bases poses unique challenges.
    The Army S&T community is leading a Deployable Force 
Protection Initiative on behalf of the Department of Defense to 
address these challenges, with an additional investment of 
nearly $170 million over fiscal years 2011 through 2015. This 
effort is focused on providing integrated, interoperable and 
scalable base protection capabilities, including stand-off 
detection, ballistic protection, and fire and defensive 
solutions. With this additional investment, Army S&T is 
spending approximately $250 million over that same period on 
technologies to protect our troops as they deploy around the 
world.
    Our investments in C4ISR [command, control, communications, 
computers, intelligence, surveillance and reconnaissance] 
technologies are essential for maintaining comprehensive 
situational awareness, effective allocation of resources, and 
supporting rapid decision-making in the challenging 
environments we face in irregular warfare.
    For fiscal year 2011, the Army is making significant new 
investments in Infrared Focal Plane Array technology. Again, 
the Army's S&T community has been asked to lead this Focal 
Plane Array Initiative on behalf of the Department of Defense. 
In fiscal years 2011 to 2015 the Army's Focal Plane Array 
Investment is increased by $94 million, to result in an overall 
investment of over $160 million in the next 5 years to develop 
critical applications for targeting, persistent surveillance, 
360-degree day/night situational awareness, and high-definition 
night vision. This focused investment ensures the United 
States' preeminence in this technology area and continued 
dominance on the battlefield.
    Our investment in medical S&T provides the basis for 
maintaining the physical and mental health of soldiers, as well 
as enhancing their performance. Investments in this area 
improve health protection, treatment, and life-saving 
interventions for our soldiers. Of particular note is the 
Army's investment in regenerative medicine. This research seeks 
to discover better ways to prevent and treat damage due to 
burns and to develop methods that will allow the regeneration 
of nerve, bone, and muscle tissue in those soldiers who have 
suffered serious tissue loss. This capability has great 
potential for treating military personnel with disfiguring and 
disabling injuries.
    While much of our focus on S&T is necessarily on the near- 
and mid-term future, we have also sustained our commitment to 
basic research with paradigm-shifting capabilities that will 
change the battlefield for the future.
    In closing, I would like to thank you, Madam Chairwoman, 
and the rest of the subcommittee for the opportunity to testify 
regarding the Army's S&T program and for your continued support 
for the technologies that will enable our soldiers both today 
and tomorrow. Thank you.
    Ms. Sanchez. Thank you, Doctor.
    [The prepared statement of Dr. Killion can be found in the 
Appendix on page 53.]
    Ms. Sanchez. Now we will hear from Rear Admiral Carr, Jr.

   STATEMENT OF REAR ADM. NEVIN P. CARR, JR., CHIEF OF NAVAL 
    RESEARCH, DIRECTOR, TEST AND EVALUATION AND TECHNOLOGY 
                    REQUIREMENTS, U.S. NAVY

    Admiral Carr. Thank you very much, Madam Chairman, Mr. 
Miller, members of the committee. It is an honor to report on 
the Department of the Navy's science and technology and how the 
President's fiscal year 2011 budget supports the Navy and 
Marine Corps.
    The fiscal year 2011 budget requests $1.96 billion for 
Naval S&T: naval, for both Navy and Marine Corps. To support a 
Navy and Marine Corps capable of prevailing against any threat, 
ONR [the Office of Naval Research] must focus on S&T that 
provides the biggest future payoff, be innovative in our 
business practices, and improve constantly our ability to 
transition S&T to programs and to the fleet.
    S&T highlights include development of novel man-machine 
interfaces, autonomous systems that separate warfighters from 
hazards, and increased mission effectiveness. This emphasis on 
autonomy and unmanned systems is embedded throughout the S&T 
portfolio. Technologies to reduce total ownership costs and 
improve system performance are also embedded across our S&T 
portfolio. By reducing costs while improving training and skill 
maintenance, S&T contributes to affordability in acquisition 
throughout the life-cycle of systems and platforms.
    ONR continues to invest in technologies to increase energy 
efficiency, enhance platform endurance, and reduce dependence 
on fossil fuels. These efforts directly support the Navy's 
energy strategy and the Secretary of the Navy's energy goals.
    We tend to focus on programs, but we face another S&T 
challenge. When Congress established the Naval Research 
Laboratory after World War I and ONR after World War II, the 
U.S. was the undisputed leader in world S&T. But that landscape 
continues to change, and we must keep a close watch on S&T in 
the international environment.
    This isn't new. Our London office was created to keep an 
eye on European S&T in 1946. We have also established offices 
in Tokyo, Santiago, Singapore, and recently in Prague. We 
search the globe for emerging research and technologies that 
enable ONR to more effectively address current U.S. naval needs 
and future requirements, and, importantly, to avoid 
technological surprise.
    Our efforts are coordinated with the other services and 
with DDR&E. Our partnership with DDR&E and the other services 
is critical. We are all challenged to accelerate the fielding 
of new capabilities, prepare for an uncertain future, in part 
through fusing an avalanche of data into an advantage in 
decision-making, do a better job of moving S&T into acquisition 
programs with less cost, time, and risk, and continue to 
develop the world-class science, technology, engineering, and 
math education required by our country and the Department of 
Defense.
    I have discussed ONR's contribution to these efforts in my 
prepared testimony. In short, we continue moving toward greater 
integration of capabilities, more effective partnership between 
research and acquisition, and a clearer vision of how to 
achieve shared goals among the services and government 
organizations, including the Departments of Agriculture, 
Energy, and the National Science Foundation.
    We have S&T partnerships in 70 countries, all 50 States, 
900 academic institutions, 1,000 points in industry hiring 
about 3,000 principal investigators, and under them, about 
another 3,300 Ph.D. students.
    While the majority of our investments are with performers 
outside the Navy's R&D [Research and Development] system, we 
continue to nurture world-class skills and innovation in our 
own labs, and especially at the Naval Research Laboratory 
[NRL]. The talent resident at NRL is especially precious. We 
recently retired Dr. and Mrs. Jerome Karle, who came to NRL 
from the Manhattan Project back in the 1950s and, together, 
represented over 120 years of combined government service. 
While at NRL, Dr. Karle was awarded the Nobel Prize in 
chemistry. Talent like that is hard to replace.
    The support of this committee has been especially critical 
in providing us the tools we need to build and nourish S&T in 
the workforce. Thank you very much for that.
    My deputy behind me, Marine Corps Brigadier General Bob 
Hedlund and I believe our S&T investments are sound, they 
represent careful stewardship of taxpayer dollars, and will 
significantly enhance the safety and performance of our 
warfighters today and in the future. Thanks very much for your 
support, and we look forward to answering your questions.
    Ms. Sanchez. Thank you, Admiral.
    [The prepared statement of Admiral Carr can be found in the 
Appendix on page 62.]
    Ms. Sanchez. And now we will hear from Dr. Walker.

STATEMENT OF DR. STEPHEN H. WALKER, DEPUTY ASSISTANT SECRETARY 
   OF THE AIR FORCE FOR SCIENCE, TECHNOLOGY AND ENGINEERING, 
  OFFICE OF THE ASSISTANT SECRETARY FOR ACQUISITION, U.S. AIR 
                             FORCE

    Dr. Walker. Thank you, Chairwoman Sanchez, members of the 
subcommittee, and staff. I am pleased to have the opportunity 
to provide testimony to you today on the fiscal year 2011 Air 
Force science and technology program. The Air Force S&T program 
provides the critical capabilities, global vigilance, global 
reach, and global power necessary to prevail in today's complex 
and uncertain security environment.
    At approximately $2.2 billion, the fiscal year 2011 
President's budget request for S&T includes an increase of $12 
million from last year. This investment sustains a strong 
foundation of basic research, applied research, and advanced 
technology development, to obtain a balance between the near-
term capability support and revolutionary technologies that 
address far-term warfighting needs.
    The Air Force continuously strives to effectively and 
efficiently allocate its S&T resources to provide the 
warfighter with superior air, space, and cyberspace 
capabilities, and ensure the technological superiority that is 
the centerpiece of our Air Force heritage.
    I would like to take a minute to introduce myself to the 
committee, since this is the first time testifying before you. 
I became the Air Force S&T exec just last month, but I am not 
new to the Defense S&T world. I began my career at the Air 
Force Research Lab in Dayton, Ohio, where I spent ten years 
working on hypersonics and airframe propulsion integration 
technologies. After receiving a Ph.D., I transferred to AFOSR 
[the Air Force Office of Scientific Research], where I ran a 
6.1 basic research program, and then went on to serve as 
special assistant to DDR&E in the Pentagon. Former DARPA 
Director Tony Tether asked me to come over. And I have spent 
the last seven months working for Dr. Regina Dugan. And it has 
been a pleasure.
    In my short time as the Air Force S&T exec, I have worked 
closely with the new commander of Air Force Research Lab, Major 
General Ellen Pawlikowski, to ensure the Air Force S&T program 
is postured to support the Air Force strategic priorities. We 
stood up an Air Force S&T tiger team with members from across 
the Air Force S&T products center and MAJCOM [Major Command] 
communities to develop a new strategy and a new S&T planning 
process that better aligns our S&T capability concepts with our 
service corps function, warfighter needs for the future.
    The Air Force S&T program does a very good job at creating 
knowledge, applying that knowledge to develop advanced 
technologies, and then transitioning those technologies to 
industry and our acquisition product centers. I believe we need 
to do a better job in the future of integrating those advanced 
technologies and develop and demonstrate desired warfighting 
capabilities. And we will certainly work with others like 
DARPA, the services, and NASA [the National Aeronautics and 
Space Administration] to help realize that vision.
    The current Air Force S&T fiscal year 2011 President's 
budget already supports several of our service corps function 
areas. And I would just like to talk about one or two.
    The Air Force is working with DARPA to develop technologies 
that will culminate in the demonstration of an electric laser 
on a large aircraft. It is really built around DARPA's HELLADS 
[High Energy Liquid Laser Area Defense System] laser device. 
After HELLADS is complete, the Air Force will couple it to a 
beam control system for a series of ground demos, followed by 
the integration of a system module into a B-1 aircraft. ELLA 
[Electric Laser on Large Aircraft], the program name, will be 
used to demonstrate aircraft self-defense capabilities of a 
high-energy electric laser in a practical platform.
    To achieve S&T objectives like this and others requires a 
vibrant science and engineering workforce and a healthy lab 
environment in which to work. The Air Force S&T program is 
committed to developing and caring for over 3,000 scientists 
and engineers. This commitment is reflected in the utilization 
of various flexibilities afforded the Air Force under the 
Laboratory Personnel Demonstration Project and other workforce 
development initiatives.
    Our fiscal year 2011 budget proposal enables us to recruit, 
develop, mentor, and retain the best and brightest scientists 
and engineers. And our budget request allows us to develop the 
workforce of the future through a myriad of science, 
technology, engineering, and mathematics outreach programs and 
initiatives.
    One I am particularly excited about is Air Camp in Dayton, 
Ohio, which maybe I will have a chance to talk to you about. In 
addition, the Air Force is using the authority provided by 
section 219 that enables laboratory directors to use up to 
three percent of the funds available to them for discretionary 
efforts in support of military missions. And we are 
particularly happy with the lab revitalization and 
recapitalization part of that authority that was passed in 
2010. It allowed us to improve our facilities.
    In conclusion, the mission of the United States Air Force 
is to fly, fight, and win in airspace and cyberspace. As an 
integral member of the joint team to ensure our Nation's 
freedom and security, guided by our strategic priorities and 
our emerging service core functions, our S&T program provides 
the balance necessary to ensure support for today's warfighter, 
while posturing for success against tomorrow's complex and 
uncertain future.
    Chairwoman Sanchez, thank you again for the opportunity to 
present testimony. Thank you for your support of the Air Force 
S&T program.
    Ms. Sanchez. Thank you, Dr. Walker.
    [The prepared statement of Dr. Walker can be found in the 
Appendix on page 79.]
    Ms. Sanchez. And now we will have Dr. Dugan.
    Is that Regina? OK.

 STATEMENT OF DR. REGINA E. DUGAN, DIRECTOR, DEFENSE ADVANCED 
        RESEARCH PROJECTS AGENCY, DEPARTMENT OF DEFENSE

    Dr. Dugan. Good afternoon, Madam Chairwoman, Mr. Miller, 
and members of the subcommittee, Mr. Lemnios, distinguished 
colleagues. My name is Regina Dugan, and I am the Director of 
DARPA. I am proud to be here, and I am clear about the weight 
of my responsibility.
    Over the 50 years of its existence, DARPA has achievements 
ranging from the Internet to stealth, from GPS [Global 
Positioning System] satellites to MEMS [Micro Electro-
mechanical Systems] technology, from rockets to the M-16 rifle. 
We challenge existing perspectives, break glass, and make 
people excited and uncomfortable, sometimes with the same 
sentence. You might say that DARPA is the Nation's elite army 
of futuristic technogeeks, and this is our service to country.
    The Agency's full testimony submitted in support of our 
budget request, details DARPA's contributions to the current 
fight, our ongoing programs, and novel initiatives that address 
some of the most complex problems of our time. When the country 
is at war and we can contribute, it is our duty to do so. 
Indeed, the Agency has been involved in support to active 
conflicts since the Vietnam War.
    At any point in time, DARPA has technologies in all stages 
of development, from nascent idea to system ready for fielding. 
Recently, we accelerated fielding of systems to protect 
helicopters and ground vehicles in theater. Both capabilities 
promise to make it very dangerous to shoot at U.S. forces.
    I believe that the breadth, urgency, and technical demand 
of these activities focus our work. The authenticity of such 
engagement inspires greater genius, and it cannot be created in 
the abstract. My recent trip to Afghanistan illustrated this 
principle and reinforced our commitment. We must balance this 
investment with our responsibilities to the next generation of 
warfighters.
    It was once considered inconceivable or at least ill-
advised to fly an aircraft without a pilot on board. In the 
very near future, the United States Air Force will train more 
UAV [unmanned aerial vehicle] pilots than conventional pilots. 
And today we talk about blackening the sky with such systems. 
The UAV capabilities deployed on the battlefield today started 
at DARPA in 1984. And what originally seemed impossible has now 
become routine.
    This progression characterizes many of DARPA's advances: 
first impossible, then improbable, eventually inevitable. And 
we take on new, seemingly impossible challenges each year, from 
hypersonic vehicle technology to tobacco plants used in vaccine 
production--which are related more than you might realize, 
because speed matters not only in global strike but also in our 
response to a biological attack; from nanoscale systems to 
quantum mechanical effects, which are related by an impact far 
disproportionate to scale, single sheets of carbon that may 
enable radar systems with 10 to 15 times greater range. That is 
a bit like having a really good right hook at the end of a 50-
foot arm. Or quantum effects that may at long last unlock the 
secrets of the canine's keen sense of smell. DARPA's commitment 
to the care of our military men and women is one way that we 
honor their commitment to the Nation.
    And we have ongoing programs devoted to stopping blood 
loss, diagnosing and treating traumatic brain injury, and 
assessing those at risk for suicide. I have spoken with 
amputees who were surprised by their own emotional response to 
receiving one of DARPA's advanced prosthetics and to feeling 
like a bilateral again. The realization that what they once 
thought was impossible no longer seems improbable but, rather, 
inevitable.
    And our commitment extends to the health of our S&T 
workforce. We have a robust STEM program that extends from 
computer science to the use of microsatellites. And would you 
believe me if I told you that in the words of researcher Zoran 
Popovic, we could put games into science rather than putting 
science into games?
    Believe. Because last year, Wired magazine reported a nail-
biting play-by-play of the battle between a 43-year-old Paris-
based marketing manager and a 13-year-old American who were in 
fierce competition to solve a protein-folding puzzle. And if 
you have ever tried to teach a student fractions, much less the 
fundamentals of protein folding, you can appreciate this 
amazing accomplishment.
    We have other additional activities in work as we look 
forward to some of the challenges the Nation faces, from 
manufacturing to cyber. And whether you believe in a war 
metaphor or a law enforcement model for cyber, the goals of the 
response are common. At DARPA we are assembling some of the 
best and brightest to work this problem and committing 
significant resources. This set of programs and ideas is almost 
overwhelming in scope and potential impact, but they are not 
ours alone. Rather, they are the result of a vibrant exchange 
among many.
    One of the Agency's strengths is its ability to build 
bridges between disparate communities and to uncover ideas in 
unexpected places. This year we have redoubled our commitment 
to this ethic, and we have aggressively engaged with three 
important constituencies: universities, industries, and the 
services.
    Getting our business practices right is part of the job. It 
is said that ambition is a dream with a V-8 engine. And our 
full testimony highlights recent efforts to fine-tune the 
engine. Included are various efforts to empower our program 
managers and office directors and to fine-tune our processes.
    What was once impossible, then improbable, and then 
inevitable, this progression characterizes DARPA's history, its 
present, and its future. The challenge serves as a timeless 
calling and a source of wonder for the organization, for those 
in it, and for those near it.
    DARPA is the Nation's elite army of futuristic technogeeks. 
They are dreamers with V-8 engines, and this is their service 
to country. On behalf of these dreamers, I thank you, because 
DARPA's success is in part owed to you, to your support and 
confidence in our mission. Thank you.
    Ms. Sanchez. I thank the Director.
    [The prepared statement of Dr. Dugan can be found in the 
Appendix on page 96.]
    Ms. Sanchez. And I see that Mr. Murphy of New York got 
scared away. But maybe Mr. Murphy of Pennsylvania would like to 
take my 5 minutes to ask his questions.
    Mr. Murphy of Pennsylvania. Thank you, Madam Chairwoman. 
And to the whole dais, thank you so much for your service to 
our country. And I appreciate it.
    Dr. Walker, I will turn to you because my brother is in the 
Air Force. I am interested. What is Air Camp?
    Dr. Walker. Yes. Air Camp we are modeling--it is one of our 
STEM outreach programs for seventh, eighth, and ninth graders. 
And we are modeling it after Space Camp, which NASA has at 
Huntsville, Alabama. And what we are doing is we have a week-
long week of activities in July where kids come in and we take 
them to the U.S. Air Force Museum, which is right there in 
Dayton, Ohio, which is a fabulous museum; take them to the 
Dayton Air Show, which is all the airplanes; we introduce them 
to the scientists and the engineers working at the lab; we show 
them what we are working on. We actually train them on a flight 
simulator and then take them up in an airplane and have them 
fly an airplane at the Aero Club there at Wright-Patt. So it is 
an outstanding--first time ever this summer, and we plan on 
having it every year, sponsored by Dayton businesses and the 
Air Force.
    Mr. Murphy of Pennsylvania. I am from the Eighth District 
of Pennsylvania, which is Bucks County and northeast 
Philadelphia. And in my district we have what is called ETC, 
Electronics Technical Corporation, sorry. So they did the 
simulators for Mission Space for Disney World, but also the 
Korean Air Force is a client, the U.S. Air Force is a client.
    Do you see the simulators actually being more in the 
future, because we could save on gas and everything, part of 
the package that you all bring to the table? Because it is, 
frankly, it is usually--the technology now is pretty damn good 
training, and yet it saves the American taxpayer a lot of 
money.
    Dr. Walker. Certainly we are doing more and more pilot 
training with simulators. Obviously, all the remotely piloted 
vehicles, you know, we train those guys on simulators. So 
simulators are a big part of where the Air Force is headed with 
training.
    Mr. Murphy of Pennsylvania. Thank you.
    Dr. Lemnios, I wanted to touch base with you about--I note 
that DDR&E has a new program in cybersecurity. And I was hoping 
you could give me that line on what the goals are of that 
program. With cybersecurity, obviously, it is a major threat to 
our country. And if you could expand on that I would appreciate 
it.
    Secretary Lemnios. Sure. Congressman Murphy, let me tell 
you how that came about and why it is in the program. It is of 
enormous interest to many people. I saw the testimony here on 
the 25th of February that had folks that addressed that similar 
topic. There is a professor from Cornell and two from the 
private sector.
    About a year ago, the President's Cyber Policy Initiative 
was published. And right after that, when I came into office 
when we sort of stood up this S&T team, we looked at what would 
be the technical underpinnings to enable those cyber policy 
initiatives. The policy initiatives were sound, they made a lot 
of sense, but we were looking for what were the technical ideas 
that would enable us to work in that space.
    And so we stood up a small 90-day study that included 
academia, that included industry, and certainly folks across 
the S&T community to really ask the question, What ideas do we 
have that would allow us to operate in the cyber domain as that 
policy review is sort of put in place? And that was really the 
foundation of the fiscal year 2011 request. It sort of allows 
us to move in the space of understanding how to operate 
effectively, attribution of attack, protection against attack, 
and it extends the technical side of what was started with the 
policy review that was published about a year ago.
    Mr. Murphy of Pennsylvania. Great.
    Dr. Dugan, how about as far as DARPA, and what you are 
doing to meet our Nation's cyber challenges?
    Dr. Dugan. In 2010 and 2011, DARPA will invest over $300 
million in cyber initiatives. And DARPA technologies are 
already prevalent in both commercial and military use. As an 
example, DARPA technology now protects all DOD network 
connections to the Internet against denial of service attacks. 
And the Agency is at the center of many new capability 
developments. Our track record of success is solid.
    As I am sure you are aware, we also have the National Cyber 
Range, two prototypical efforts with 100 to 200 actual physical 
nodes and tenfold more virtual nodes as a means for providing a 
test bed for a whole variety of cyber initiatives.
    Mr. Murphy of Pennsylvania. Okay. Thank you.
    Ms. Sanchez. Thank you, Mr. Murphy. And now we will go to 
Mr. Miller for his five minutes of questions.
    Mr. Miller. Thank you very much. And I will ask my--since 
you started with Mr. Murphy, if Mr. Conaway wants to take five 
minutes.
    Mr. Conaway. Thank you. I appreciate that.
    Panel, thank you for being here. Kind of at the 10,000-foot 
level, the chart we have got in our papers shows that the 
budget requests for this year are somewhat in line with the 
budget requests of last year, but below the appropriations 
levels from this past year. Comments on that, Dr. Lemnios?
    In particular, given the change in the Warfighter Act that 
put additional emphasis on prototyping, the drop in the request 
year over year and also over the appropriations in the 6.4 line 
item, which shows about an almost $2 billion reduction in the 
prototyping category. Help us to understand that relationship 
with the new law.
    Secretary Lemnios. Mr. Conaway, let me point to two things. 
On the S&T side, the total S&T budget, the President's budget 
as submitted, as compared with the fiscal year 2010 PBR 
[President's Budget Request], is about the same. With regard to 
the 6.1, 6.2 and 6.3 initiatives, there was some shift to 
emphasize basic research and applied research in those areas. 
And those were really opportunistically driven concepts. We 
found ideas across the S&T community that would have a 
significant impact, particularly in cyber that we talked about, 
but in other areas, in forward base protection and other 
topics.
    With regard to 6.4, the issue there was that we in fact 
have two new PEs, program elements, that address the Weapons 
System Acquisition Reform Act staffing and moving rapid 
prototyping concepts to field more rapidly. So those were 
intact.
    There were some other activities that I would have to take 
a question for the record, to get back to you as to what the 
other adjustments were. But in general, sort of in broad terms, 
the focus of the S&T initiatives was to drive deeper 
investments in fundamental research. As we heard from Dr. 
Dugan, the connection with the university communities is 
absolutely critical to get new ideas to the field. And on the 
advanced prototyping side in the 6.4 efforts, we in fact have 
those in place.
    Mr. Conaway. Thank you.
    Admiral Carr, in your testimony you talked about the Navy's 
international S&T efforts. How do you pick those partners? How 
do you orchestrate the research so that we don't share a 
breakthrough with folks we don't want to share with, or those 
kinds of things? Can you kind of walk us through your thoughts 
there?
    Admiral Carr. Yes, sir. Well, we are interested in regions 
of the world. We don't really pick partners just for point 
solutions. And the recent opening in Prague, for example, was 
to kind of help us with our window into Central and Eastern 
Europe. Prague has a rich academic tradition, by the way. And 
we have been doing some work with them, and the Air Force as 
well, on Autonomous Airborne Vehicle Sense and Avoid for 
several years now. The work we do is unclass, open source, so 
it is far removed from things where we would have to worry 
about classification, of course. And, really, we are there as 
much as to take advantage of the good research they are doing 
to avoid technological surprise.
    So we have periodic briefings back at home on subjects of 
interest like meta materials, power and energy, unclassified 
basic research subjects, but just to watch what is going on in 
trends around the world.
    Mr. Conaway. All right. I guess for all of you, how is the 
impact of the new law that was signed, I guess last year, on 
weapons acquisition in terms of how did that overlay with what 
you are doing? Are there issues with that that we need to look 
at or be aware of that make the system less efficient, which is 
not the goal? We wanted it to be, obviously, more efficient and 
more value for the fighter. But what has been your experience 
with this so far? And I know it is early.
    Secretary Lemnios. I can take a first crack at that because 
much of the Systems Engineering Initiative and the 
Developmental Test and Evaluation activity, both of those 
offices were staffed in DDR&E. They report to the Director of 
AT&L [Acquisition, Technology and Logistics]. But they are in 
our area because we wanted to couple those initiatives tightly 
to the S&T community. It is critically important. It is a 
workforce issue to make sure that the ideas that are going into 
the evaluation of system concepts indeed have the best benefit 
of seeing concepts that were starting to emerge from the 
research communities. And that is actually working very well. 
We are overlaid to a number of Department major defense 
programs doing technology readiness assessments for major 
defense programs that are underway. We are also doing 
manufacturing assessments of those. And we have coupled an 
entirely new cadre of folks to provide the technical 
underpinning and risk assessment.
    And I think you will see shortly the first annual report to 
Congress on the Weapons System Acquisition Reform Act. It is 
due in a few days, and we are on track to submit that.
    Mr. Conaway. Thank you, gentlemen, ma'am. I yield back.
    Ms. Sanchez. The gentleman yields back his time. Mr. Smith, 
did you say you had a question?
    Mr. Smith. I have no questions.
    Ms. Sanchez. Okay. Mr. Smith, the fact that you don't have 
any questions, I have one and then we will toss it back over to 
the other side. By the way, some of you are looking kind of 
bored out there.
    Dr. Lemnios, I understand that the DDR&E has stood up a 
Rapid Fielding Directorate in order to address warfighter needs 
expeditiously. Would you please tell me how this directorate is 
going to be more responsive when, according to a recent report 
by the Defense Science Board, there are more than 20 programs 
already in the inventory that purport to rapidly transition 
technologies to the warfighter?
    And also, what are the technologies that our warfighters 
have specifically requested? And have our S&T programs been 
able to successfully address those needs? And lastly, what are 
the outstanding warfighter's needs that have to be addressed?
    Secretary Lemnios. Madam Chairwoman, that is a great 
question and it is the subject of most of my day, day in, day 
out. I have met with your staff quarterly. They understand the 
focus that we are putting on this. It is a personal push to 
make that happen.
    I mentioned in my opening comments and certainly in my 
testimony the coordinates of innovation, speed, and agility. I 
will tell you, as you well know, as the committee well knows, 
those are the coordinates of any first-rate business. They are 
the coordinates of any innovative organization. We are slowly 
moving the Department in that direction. It is a challenge at 
all ends.
    We started by meeting with each of the combatant commanders 
to understand what do they need in the field. I have met with 
the combatant commanders. The avenue to accept and to capture 
their needs is formalized in our Joint Urgent Operational Needs 
Statements. Those come in directly from the combatant 
commanders. We have a group that resources those directly. That 
is the highest priority that we put in place within my 
Department and within our focus. I will tell you, as well, that 
the Defense Science Board studies and the other studies that we 
have seen and we have tracked, in fact the Gansler report that 
you have referenced, also have addressed how do we cohere and 
how do we scale this enterprise? And we are looking at that. 
That story is not yet complete. It is largely driven by 
individuals that understand the intersection of the warfighter, 
technology, and what can be actually resourced through the 
Department and with Congress.
    Each of these has been a mash-up. Each of these has been a 
hand-crafted concept that we have had to take through. We are 
doing that day in and day out. And we are working to try to 
harmonize and scale that to the right level.
    I will give you two examples of concepts that have gone 
through and I think are starting to bear some significant 
results. Certainly the MRAP [Mine Resistant Ambush Protected 
vehicle] and the MRAP ATV [All Terrain Vehicle] is the icon 
case. That was a concept that started with a single letter from 
General Petraeus. It was resourced, it was put to the field. In 
fact, my principal deputy, Dr. Al Shaffer, Mr. Al Shaffer who 
is behind me, was a lead person in making that happen. From 
that letter from General Petraeus to the first vehicles that 
were in the field was less than six months. We are now on a 
ramp of producing these at a rate of about a thousand per month 
and delivering these to the theater. This is a remarkable 
concept.
    It is a remarkable story of how we built a new capability 
that was never in anybody's plan when this first started, and 
yet the Department, Congress, the warfighter, came together to 
build a capability that is saving lives day in and day out. So 
it is critically important that we find ways to field those.
    The Helicopter Survivability Task Force that we stood up 
last July came forward with a reprogramming action. Congress 
approved that action, and some of those concepts are now 
finding their way to the field. One of those concepts was the 
HALTT [Helicopter Alert and Threat Termination-Acoustic] anti-
sniper that started at DARPA. It has been resourced. It is now 
being tested, and it will be deployed to the field later this 
year.
    Each one of these is a hand-crafted sort of a concept that 
we have to hand-carry through the building. It is just the way 
it is. And we are trying to find a way to resource this at 
size.
    Ms. Sanchez. Thank you. And now I will recognize Mr. Miller 
for five minutes.
    Mr. Miller. Thank you, ma'am. And I will yield my time to 
Colonel Kline.
    Mr. Kline. I thank the gentleman for yielding. Thank you, 
gentlemen and lady, for being here today, for your testimony. I 
apologize for not being here for the testimony. It is a crazy 
way this place works. So you probably have covered some of the 
very issues that I would like to ask some questions about.
    But I would like to get in questions, if I could, please, 
to the DDR&E, and then to Admiral Carr if time permits. I 
should let you know, sir, that everything I know I learned from 
members of your staff. So be ready.
    Secretary Lemnios. Current or former?
    Mr. Kline. Yes. The answer to that is yes. I am looking 
at--this is a document prepared for us by HASC [the House Armed 
Services Committee], and it is listing science and technology 
priorities for 2011. It looks to be about ten or a dozen or so. 
It starts with medical S&T that DARPA is responsible for, 
expanded cyber protection, and it works its way down to STEM 
workforce, all.
    So two questions. You perhaps don't have the same piece of 
paper I do. Are these priorities, are they lined up 1 through 
11 or 12; or is this just a clump of priorities that you want 
6.1, 6.2 to address?
    Secretary Lemnios. So, Colonel Kline, I am not sure I have 
that particular piece of paper, but I think I know----
    Mr. Kline. The gist of it is medical S&T, the highest 
priority, and we are working our way down to STEM. Or is it 
more amorphous than that?
    Secretary Lemnios. No, there are a core group of concepts 
that have come through numerous studies. And when you step back 
and look at these, whether they come from the Defense Science 
Board, whether they come from the National Academies, whether 
they come from internal studies, and you step back at 30,000 
feet, there is a handful of topics that always find their way 
to the top of the list.
    Cyber is absolutely on that. And the barrier there was 
finding the right technical ideas to go pursue. So our study 
that we launched last year answered that question. And that was 
the subject of the PBR 2011 submittal. We have done that in 
other targeted areas.
    Electronic warfare is another one where we launched a 
targeted study to try to understand what could we do in this 
field that would have significant impact for the Department 5, 
10, 15 years from now, where the adversary is also in that 
field on a commercial time scale?
    DARPA has launched a whole set of programs five years ago 
that will open new frontiers in biomedical engineering and new 
frontiers in prosthetics.
    Mr. Kline. All right. Let me interrupt because I am going 
to run out of time. I get the idea that these things have risen 
to the top. And I guess my question was: Does everybody agree 
that medical S&T is first, followed by cyber, or are these 
taken together as a group, the areas you are going to focus 
S&T?
    Secretary Lemnios. Those, taken as a group, are the sort of 
80 percent region of what the focus is. We want to find 
outliers that will have significant impact.
    Mr. Kline. Sure.
    Secretary Lemnios. And that is a subject as well.
    Mr. Kline. Right. Hopefully that would happen in some basic 
research.
    Let me ask you about STEM. Obviously, there are a lot of 
people talking about STEM and educating Americans across the 
board. But you have gone so far, as I understand it, to stand 
up a new office. Tell me about that office. I, having lived and 
worked inside the DDR&E's spaces, that is pretty amazing. It is 
hard enough without standing up a new office and new goals and 
new purposes and new people. Tell me about that.
    Secretary Lemnios. So what we have done there is stand up a 
board of directors, not a new office, but an organization that 
allows us to take--first of all, bring to bear those across the 
Department that have concepts in STEM across the services and 
DARPA and the balance of the DOD enterprise, and bring together 
the best practices to try to understand where we could make 
improvements in the overall STEM posture. So this is really a 
board of directors-type model.
    We have then gone back, we are going back now to try to 
understand what are those critical technologies--so there are 
really two parts to this. One is the overall STEM initiative, 
and that is much larger than DDR&E. In fact, that is a national 
issue. But then there is the DOD piece that is identifying the 
critical technologies where we have to have core competencies, 
systems engineering being one, and we need to make sure that in 
fact we have those courses, the students that are tracking 
those courses that are finding their way into DOD service.
    So in the area of systems engineering we are standing up a 
set of capstone courses with a number of universities this year 
to try this experiment. And the experiment is let's find the 
targeted areas where the DOD really needs core capabilities, 
let's identify the schools that could really resource that 
through open competition, and address a course structure and a 
set of courses that allow the students to matriculate through 
those avenues.
    Mr. Kline. Okay. I know I am over my time, but I just want 
to make sure I understand you haven't set up a new office with 
a new SES [Senior Executive Service] 3, 4, 5-something running 
it, and a military assistant and some other staff inside the 
DDR&E.
    Secretary Lemnios. That is staffed by a program manager.
    Mr. Kline. Okay.
    Secretary Lemnios. And she is pulling together the best 
practices across the Department to try to understand where we 
could have significant impact.
    Mr. Kline. All right. I see my time has expired. I yield 
back. I am sorry.
    Ms. Sanchez. You are just stealing time from Mr. Miller. 
Mr. Miller.
    Mr. Miller. Thank you very much. Kind of following on what 
I think Mr. Kline was just talking about. And Admiral, I think 
you talked about the landscape changing in S&T. And I just 
would like to hear from each of you in regards to retaining the 
best possible people, recruiting and retaining the best 
possible folks that are out there. Are we doing enough? If not, 
what can we do better? Anybody that wants to start. Admiral?
    Admiral Carr. I will start. I think we are recruiting and 
retaining wonderful people. It is not just a Navy or a military 
issue. I think the country needs to do more. The statistics 
show that we are graduating more people with technical and 
advanced degrees, but we are not keeping up with demand. We are 
diverging there. And last year for the first time in this 
country, we awarded more advanced degrees to non-U.S. citizens 
than to U.S. citizens. So we need to think about how we are 
going to create a climate where we encourage more young people 
to pursue careers in science, technology, engineering, and 
math.
    Of the 2.5 million students that graduate from high school, 
about 2 million go on to college; half of them consider 
technical education; fewer than half of them, 480,000, actually 
graduate; and about 186,000 go on to pursue technical degrees.
    Those numbers just aren't enough. It is not just a Navy 
issue, but we all want a piece of it, and we all certainly 
selfishly want to make sure that the base is wide enough so we 
can draw from it. We contribute to it about $40 million a year 
from the Navy to STEM outreach and education in the form of 
grants, scholarships, competitions, and other support.
    And I will leave some time for others to answer.
    Dr. Killion. I will take on a bit of that. Another part I 
think you were mentioning is about getting folks into our labs 
and centers. What has been very gratifying over the last--I 
have been here a while. I have come here more times than 
anybody else at the table, so I can say this. As Mr. McClees 
knows, I have been in this business working with the Army for 
quite some time. It has been great over the last decade. Not 
necessarily for the best reasons, because we are at war; but 
because we are at war, our labs and centers have been able to 
attract and support growing of the workforce, to really bring 
in new young people with good ideas that are interested in 
contributing to what can be done for this Nation. They are 
excited about the kind of work that gets done. And we give them 
interesting problems to work upon. That is the key part.
    Part of the challenge is being able to hire them quickly. 
And the Congress has been very magnanimous in giving us 
additional authorities that have allowed us to do that. And we 
need to exploit those to the greatest extent possible and show 
to you that we need to have even more authority in that domain 
so that we can hire people quickly. Because if you have to say, 
Yeah, we want you, but come back in six months after we have 
gone through our whole paperwork process, that is not going to 
work and we will not be competitive. So to be competitive we 
have to have that direct-hire authority.
    Another piece of it is having the facilities and 
environment in which you can actually do the cutting-edge 
research that needs to be done. Some of the authorities that we 
have gotten in minor construction have really helped us. We are 
working with DDR&E on how we develop a strategy for more robust 
facilitization of our laboratories going forward, because we 
have to stay at the state of the art if we are going to attract 
young people who are interested in doing work in science, math, 
and engineering with our Department and in our laboratories and 
centers.
    Dr. Dugan. I would like to add, to give you some insight on 
the output that we have already seen from some of our STEM 
activities. So we have a program entitled Inspire, which 
utilizes micro-satellites inside the Space Station as a 
platform for student-led experiments. That program has 
graduated more than 80 students from undergraduates to Ph.D.s, 
with already a noticeable impact, as we have seen graduates 
from the program among the top technical experts across all the 
major space industry primes.
    And you heard me mention something about a very novel 
program that we have entitled Fold It. It was developed by a 
researcher named Zoran Popovic. And Fold It takes a new 
approach to inspiring and capturing the imagination of many 
young people, and actually those who haven't been previously 
associated with science. The protein-folding puzzles, these 
puzzles for science in Fold It, have really elicited a very 
interesting phenomenon. Since the launch of Fold It in May of 
2008, over 120,000 people have participated in protein-folding 
experiments, and an average of 200 new users sign on a day. Of 
the 20 top players, only one to two have had experience in 
biochemistry. So it is a very interesting example, I think, of 
the importance of innovative strategies to not only train, but 
to capture the imagination and inspire wonder in science and 
engineering as it pertains to the Department's needs and the 
Nation's needs.
    Ms. Sanchez. Anybody else out there want to add to that 
question?
    Secretary Lemnios. Let me just add one more comment. The 
example of the capstone course that I mentioned I think is a 
good example of how we are trying to change the equation, how 
we are really trying to drive the inspiration of kids and young 
engineers into the fields that we have all enjoyed.
    This is also very personal for me because in fact my wife 
is very much involved in STEM, trying to inspire young women to 
move into science and engineering. It is something that we talk 
about at the dinner table. It is a good part of our life.
    But the key part of this, it seems to me Dr. Killion 
mentioned the key pieces: having the right facilities, having 
the right challenge problem, and building the mentorship day to 
day that inspires a student to move into a field and have some 
traction that they in fact can achieve and they can contribute.
    The capstone courses that we are putting in place, we are 
starting with the service academies, we are moving to a few 
universities. Each of those couple graduate students, and 
perhaps undergraduate students, with a DOD user, with somebody 
in uniform that understands a challenge problem. It might be a 
UAV control problem. It might be an undersea autonomous vehicle 
problem. And that user will work with the students hand in hand 
as a mentorship to try to affect a capability that might 
eventually transition to the user side of the equation.
    Working as a mentor over a period of time is really what is 
needed. And we are trying to build those channels. And they are 
hand-crafted, but those are the channels we are trying to build 
with a few universities this year and then scaling that to 
something much larger next year.
    Dr. Dugan. I would like to add just one more thing. Oh, 
Tom.
    Ms. Sanchez. We have a bit of time. They have just called 
votes, so we might have another five or six minutes. So I think 
we can get both of your responses in.
    Dr. Dugan. I would just like to add that I think it is 
important we recognize that the talent pool, the mind share is 
global now. And we have seen evidence of this in our engagement 
with universities as we have sought to protect the basic 
elements of fundamental research within the university setting 
as well as national security.
    And as an example, we have a young fellowship program. It 
is designed to bring young, very bright professors to 
Department problems. And previously, that award was granted 
only to those who could secure a security clearance, which 
became a surrogate for U.S. citizenship. And what we recognized 
in that program was that many of the universities were stepping 
away, or they were reluctant to participate because they had 
recognized on their own campuses that the mind share is global.
    For many of the top universities, the sun never sets on 
their campuses. They have campuses all across the world. And so 
we relieved that restriction, with full awareness and 
protection of national security interests, so that on balance 
we could bring to the table some of the best minds present in 
the country, whether or not they are U.S. citizens, to 
participate in fundamental research. And I think we have to 
develop strategies for understanding and capitalizing on the 
nature of this global talent pool writ large.
    Dr. Killion. Okay, so my story is a little less, let's say, 
formal than that, but it is refreshing, because I went to speak 
at my granddaughter's third-grade science class. And I pulled 
together several science classes, and I brought in some robots, 
and let them see the robots, they got to see the video from the 
robots to do this. It was the most intense hour-and-a-half 
session I have ever had in my entire career in terms of you 
can't imagine the arms in the air asking questions. Had to 
avoid the questions about do you put guns on these robots. But 
the key was they are excited about science and engineering and 
technology at that age.
    Our challenge is keeping them excited, giving them the 
kinds of problems that Regina is talking about, so it keeps 
them interested and makes them realize they are able to do this 
and it is important. And providing that environment when they 
come into our laboratories, where they will stay excited and 
stay with us, because we need their expertise and their ideas. 
Third graders are great, but we do need those graduate 
students, too.
    Ms. Sanchez. Well you know, it is an interesting thing, 
because I sit on another committee called the Joint Economic 
Committee. And we had at that time Chairman Greenspan of the 
Federal Reserve. And we were talking about all this 
international stuff and the Chinese currency, what you read in 
the papers, et cetera. And at one point he said to us the 
problem is education. He said, I don't know what happens, but 
in third grade our kids test at the top of any level and by the 
eighth grade they are 43rd in the world as far as what is going 
on.
    So, as I heard some of your comments about we need to keep 
them interested and everything, I was thinking to myself we 
need to keep them interested between the third and the eighth 
grade to get them there.
    And personally, being a Hispanic, when I take a look at the 
fact that 50 percent of Latina students in our Nation fail to 
complete the 12th grade--you know, most people see the high 
school dropout rate and they see 20 or 25 percent, but the 
reality is it is at 50 percent. If you are in the 11th grade, 
go and get a job at McDonald's, you are not considered a 
dropout if you leave school to go and get a job at McDonald's.
    So we are looking, and I realize what you said, Dr. Dugan, 
about opening it up to other worlds or other nations. But the 
reality is we are still looking at what do we need to do to our 
workforce, home grown here in the United States, to get them to 
do these science and technology programs.
    And I guess I just will relate back to what you said, Dr. 
Killion. I had the opportunity after 12 years of being in the 
Congress to finally go to the South Pole. I think the Congress 
people get one trip every two years through the Science 
Committee. And of course, the people on the Science Committee 
get to sign up first. And finally after 12 years--I don't sit 
on the Science Committee--I got an open slot and I got to go to 
the South Pole, which was really one of the most amazing trips 
that I have ever made. To see the scientific research being 
done on that continent and to understand the possibilities--it 
was really an amazing thing to meet with my graduate students 
from Stanford and from UCLA and people from Boston and others 
just bringing their grad students to do the type of research 
that we collect there. It was just the most amazing thing.
    But there happened to be this penguin colony there also. 
And there were these video cams set up out there where it was 
picking up 24 hours a day what this penguin colony was doing on 
the ice, how they were living, what they were doing, et cetera. 
And they told me, ``Well, the scientists said you can go in 
there because this is on a cam; but we do it so that you can go 
to the Web site, and teachers in the third grade can teach 
their students about the scientific knowledge about what is 
going on with the penguin.''
    So I came back to my district and I said to my teachers, 
you know, there is this great program that we are funding, 
actually, where we have this penguin colony, and you should 
really tap into it and figure out how to use it and everything. 
And I went back maybe about six months later to one of the 
classes where they were doing this, where they had followed the 
penguins every single day. And these kids were so excited about 
science.
    So you are right. We have to keep them excited, because it 
can't just be in the third grade. It has to be all the way, so 
we can get them through geometry and trig and algebra II and 
calculus and everything else, to get them to be our engineers 
of the future.
    I thought that was one of the most worthwhile trips I took, 
and actually was able to bring something back to kids in my 
district.
    Admiral, before I put down the gavel and we go and take our 
votes.
    Admiral Carr. I would just add that that sweet spot of 
inspiration is right there in about junior high school. Much 
beyond that, kids have begun to make up their mind. So I know 
we all fund across from K through 12, all the way up to 
graduate school, but it is a very important spot right there in 
junior high. We need to aim there.
    Ms. Sanchez. Thank you.
    To the members of my committee, anybody have another 
comment or anything?
    If that is it, we will adjourn and we will go to votes. 
Thank you all. The committee is now adjourned.
    [Whereupon, at 4:14 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 23, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 23, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7701.001
    
    [GRAPHIC] [TIFF OMITTED] T7701.002
    
    [GRAPHIC] [TIFF OMITTED] T7701.003
    
    [GRAPHIC] [TIFF OMITTED] T7701.004
    
    [GRAPHIC] [TIFF OMITTED] T7701.005
    
    [GRAPHIC] [TIFF OMITTED] T7701.006
    
    [GRAPHIC] [TIFF OMITTED] T7701.007
    
    [GRAPHIC] [TIFF OMITTED] T7701.008
    
    [GRAPHIC] [TIFF OMITTED] T7701.009
    
    [GRAPHIC] [TIFF OMITTED] T7701.010
    
    [GRAPHIC] [TIFF OMITTED] T7701.011
    
    [GRAPHIC] [TIFF OMITTED] T7701.012
    
    [GRAPHIC] [TIFF OMITTED] T7701.013
    
    [GRAPHIC] [TIFF OMITTED] T7701.014
    
    [GRAPHIC] [TIFF OMITTED] T7701.015
    
    [GRAPHIC] [TIFF OMITTED] T7701.016
    
    [GRAPHIC] [TIFF OMITTED] T7701.017
    
    [GRAPHIC] [TIFF OMITTED] T7701.018
    
    [GRAPHIC] [TIFF OMITTED] T7701.019
    
    [GRAPHIC] [TIFF OMITTED] T7701.020
    
    [GRAPHIC] [TIFF OMITTED] T7701.021
    
    [GRAPHIC] [TIFF OMITTED] T7701.022
    
    [GRAPHIC] [TIFF OMITTED] T7701.023
    
    [GRAPHIC] [TIFF OMITTED] T7701.024
    
    [GRAPHIC] [TIFF OMITTED] T7701.025
    
    [GRAPHIC] [TIFF OMITTED] T7701.026
    
    [GRAPHIC] [TIFF OMITTED] T7701.027
    
    [GRAPHIC] [TIFF OMITTED] T7701.028
    
    [GRAPHIC] [TIFF OMITTED] T7701.029
    
    [GRAPHIC] [TIFF OMITTED] T7701.030
    
    [GRAPHIC] [TIFF OMITTED] T7701.031
    
    [GRAPHIC] [TIFF OMITTED] T7701.032
    
    [GRAPHIC] [TIFF OMITTED] T7701.033
    
    [GRAPHIC] [TIFF OMITTED] T7701.034
    
    [GRAPHIC] [TIFF OMITTED] T7701.035
    
    [GRAPHIC] [TIFF OMITTED] T7701.036
    
    [GRAPHIC] [TIFF OMITTED] T7701.037
    
    [GRAPHIC] [TIFF OMITTED] T7701.038
    
    [GRAPHIC] [TIFF OMITTED] T7701.039
    
    [GRAPHIC] [TIFF OMITTED] T7701.040
    
    [GRAPHIC] [TIFF OMITTED] T7701.041
    
    [GRAPHIC] [TIFF OMITTED] T7701.042
    
    [GRAPHIC] [TIFF OMITTED] T7701.043
    
    [GRAPHIC] [TIFF OMITTED] T7701.044
    
    [GRAPHIC] [TIFF OMITTED] T7701.045
    
    [GRAPHIC] [TIFF OMITTED] T7701.046
    
    [GRAPHIC] [TIFF OMITTED] T7701.047
    
    [GRAPHIC] [TIFF OMITTED] T7701.048
    
    [GRAPHIC] [TIFF OMITTED] T7701.049
    
    [GRAPHIC] [TIFF OMITTED] T7701.050
    
    [GRAPHIC] [TIFF OMITTED] T7701.051
    
    [GRAPHIC] [TIFF OMITTED] T7701.052
    
    [GRAPHIC] [TIFF OMITTED] T7701.053
    
    [GRAPHIC] [TIFF OMITTED] T7701.054
    
    [GRAPHIC] [TIFF OMITTED] T7701.055
    
    [GRAPHIC] [TIFF OMITTED] T7701.056
    
    [GRAPHIC] [TIFF OMITTED] T7701.057
    
    [GRAPHIC] [TIFF OMITTED] T7701.058
    
    [GRAPHIC] [TIFF OMITTED] T7701.059
    
    [GRAPHIC] [TIFF OMITTED] T7701.060
    
    [GRAPHIC] [TIFF OMITTED] T7701.061
    
    [GRAPHIC] [TIFF OMITTED] T7701.062
    
    [GRAPHIC] [TIFF OMITTED] T7701.063
    
    [GRAPHIC] [TIFF OMITTED] T7701.064
    
    [GRAPHIC] [TIFF OMITTED] T7701.065
    
    [GRAPHIC] [TIFF OMITTED] T7701.066
    
    [GRAPHIC] [TIFF OMITTED] T7701.067
    
    [GRAPHIC] [TIFF OMITTED] T7701.068
    
    [GRAPHIC] [TIFF OMITTED] T7701.069
    
    [GRAPHIC] [TIFF OMITTED] T7701.070
    
    [GRAPHIC] [TIFF OMITTED] T7701.071
    
    [GRAPHIC] [TIFF OMITTED] T7701.072
    
    [GRAPHIC] [TIFF OMITTED] T7701.073
    
    [GRAPHIC] [TIFF OMITTED] T7701.074
    
    [GRAPHIC] [TIFF OMITTED] T7701.075
    
    [GRAPHIC] [TIFF OMITTED] T7701.076
    
    [GRAPHIC] [TIFF OMITTED] T7701.077
    
    [GRAPHIC] [TIFF OMITTED] T7701.078
    
    [GRAPHIC] [TIFF OMITTED] T7701.079
    
    [GRAPHIC] [TIFF OMITTED] T7701.080
    
    [GRAPHIC] [TIFF OMITTED] T7701.081
    
    [GRAPHIC] [TIFF OMITTED] T7701.082
    
    [GRAPHIC] [TIFF OMITTED] T7701.083
    
    [GRAPHIC] [TIFF OMITTED] T7701.084
    
    [GRAPHIC] [TIFF OMITTED] T7701.085
    
    [GRAPHIC] [TIFF OMITTED] T7701.086
    
    [GRAPHIC] [TIFF OMITTED] T7701.087
    
    [GRAPHIC] [TIFF OMITTED] T7701.088
    
    [GRAPHIC] [TIFF OMITTED] T7701.089
    
    [GRAPHIC] [TIFF OMITTED] T7701.090
    
    [GRAPHIC] [TIFF OMITTED] T7701.091
    
                                  <all>

</pre></body></html>
